Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    VULNERABILITIES IN
       MEDICARE’S
 INTERRUPTED-STAY POLICY
   FOR LONG-TERM CARE
        HOSPITALS



                    Daniel R. Levinson
                     Inspector General

                       June 2014
                     OEI-04-12-00490
EXECUTIVE SUMMARY: VULNERABILITIES IN MEDICARE’S INTERRUPTED-STAY POLICY FOR
LONG-TERM CARE HOSPITALS, OEI-04-12-00490

WHY WE DID THIS STUDY

In 2010 and 2011, Medicare paid $10.3 billion to 449 long-term care hospitals (LTCHs) for services billed on behalf of
approximately 254,000 beneficiaries. LTCHs are the most expensive post-acute care setting because they are intended to
treat patients with complex medical conditions. Beneficiaries may leave an LTCH and return at a later date. The
Medicare LTCH interrupted-stay policy is intended to save money by treating time spent at an LTCH before and after
an interruption as a single stay, rather than considering the second portion of the LTCH stay to be a readmission and
thus paying for two separate stays. However, LTCHs receive payment for a second stay if a beneficiary returns to the
LTCH after a certain number of days (known as the fixed-day period) or receives services from multiple facilities
before returning.

HOW WE DID THIS STUDY

We analyzed data from claims from 2010 and 2011 from LTCHs and from “intervening facilities”—i.e., facilities that
treat patients during interruptions in their LTCH stays—to identify inappropriate payments for interrupted stays in
LTCHs. Additionally, we identified LTCHs with a high number of readmissions immediately after the fixed-day period
and after multiple short intervening-facility stays. We also identified co-located LTCHs—i.e., LTCHs located in the
same building or on the same campus as another provider—that billed in 2010 and 2011 and determined whether they
reported their co-located status and whether they exceeded the 5-percent readmission threshold. (If the number of
discharges and readmissions between an LTCH and a co-located provider exceeds 5 percent of the LTCH’s total
Medicare discharges to that provider during a cost-reporting period, all readmissions from the co-located provider are
to be paid for as interrupted stays, regardless of the number of days spent away from the LTCH.)

WHAT WE FOUND

We identified several vulnerabilities in the LTCH interrupted-stay policy, including inappropriate payments, financial
incentives to delay readmissions, and potential overpayments to co-located LTCHs. Specifically, in 2010 and 2011,
Medicare inappropriately paid $4.3 million to LTCHs and intervening facilities for interrupted stays. Additionally, 59
LTCHs had a high number of readmissions immediately after the fixed-day period and 24 LTCHs had a high number of
readmissions following multiple short stays at intervening facilities. Medicare paid $12 million and $3.1 million,
respectively, for these readmissions. While these readmissions may be appropriate, this raises concerns about whether
financial incentives, rather than beneficiaries’ medical conditions, may have influenced some LTCHs’ readmission
decisions. Further, the Centers for Medicare & Medicaid Services (CMS) did not know the co-located status of most
LTCHs, preventing it from applying a payment adjustment to the 35 percent of co-located LTCHs that exceeded the
5-percent readmission threshold.

WHAT WE RECOMMEND

We recommend that CMS (1) review existing safeguards to determine whether additional action is needed to prevent
future inappropriate payments for interrupted stays, (2) conduct additional analysis to determine the extent to which
financial incentives influence LTCHs’ readmission decisions, (3) develop a system to enforce the 5-percent
readmission threshold, (4) take appropriate action regarding LTCHs exhibiting certain readmission patterns, and (5)
take appropriate action regarding inappropriate payments and overpayments we identified. CMS concurred—
contingent on receiving more information from OIG—with two of our recommendations and nonconcurred with three
recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................9 

Findings......................................................................................................13 

           Nearly all interruptions and readmissions occurred between LTCHs 

           and hospitals...................................................................................13 

           Medicare inappropriately paid $4.3 million to LTCHs and 

           intervening facilities for interrupted stays .....................................13 

           Financial incentives in the interrupted-stay policy may influence
           the readmission decisions of some LTCHs ....................................14 

           Approximately one-third of co-located LTCHs exceeded the 

           5-percent readmission threshold, but CMS lacks the information 

           to apply a payment adjustment ......................................................18 

Conclusion and Recommendations ............................................................21 

           Agency Comments and Office of Inspector General Response.....24 

Appendixes ................................................................................................27 

           A: Number of Long-Term Care Hospitals by State, 2010 and 

           2011 ................................................................................................27 

           B: Example of Total Payments to a Long-Term Care Hospital 

           for a Stay With a 3-Day-or-Less Interruption for 

           MS-LTC-DRG 207 ........................................................................29 

           C: Number of Long-Term Care Hospitals With a High Number 

           of Readmissions Immediately After the Fixed-Day Period 

           by State, 2010 and 2011 .................................................................30 

           D: Number and Percentage of Co-Located Long-Term Care 

           Hospitals by Medicare Administrative Contractor Jurisdiction, 

           2010 and 2011 ................................................................................31 

           E: Agency Comments ...................................................................32 

Acknowledgments......................................................................................36 

                    OBJECTIVES
                    1.	 To describe billing of interrupted stays and readmissions in long-term
                        care hospitals (LTCHs).
                    2.	 To determine the extent to which Medicare made inappropriate
                        payments for interrupted stays in LTCHs.
                    3.	 To determine the extent to which additional Medicare payments were
                        made because LTCHs readmitted beneficiaries immediately after the
                        fixed-day period or after multiple short stays at intervening facilities.
                    4.	 To determine the extent to which co-located LTCHs reported their
                        co-located status and exceeded the 5-percent readmission threshold.

                    BACKGROUND
                    Patients that require continued medical care after a hospitalization receive
                    post-acute care. Post-acute care can be provided in skilled nursing
                    facilities (SNFs), inpatient rehabilitation facilities, the home, or LTCHs.
                    LTCHs are intended to treat patients with complex medical conditions that
                    require prolonged post-acute hospital-level care. Therefore, LTCHs are
                    the most expensive post-acute care setting and are paid at rates higher than
                    those paid to acute-care hospitals (i.e., hospitals).1 To qualify for and
                    receive Medicare payments as an LTCH, a facility must meet Medicare
                    conditions of participation for hospitals and have an average length of stay
                    greater than 25 days for its Medicare beneficiaries.2 In 2010 and 2011,
                    Medicare paid $10.3 billion to 449 LTCHs for services billed on behalf of
                    approximately 254,000 beneficiaries.3
                    LTCHs are located in almost all States, but are not distributed evenly
                    throughout the country. Over 50 percent of LTCHs are located in
                    seven States. Texas and Louisiana have the most LTCHs, with 18 percent
                    and 9 percent of the national amount, respectively. (See Appendix A for
                    the number of LTCHs by State in 2010 and 2011.) Further, two major

                    1
                      The Medicare Payment Advisory Commission (MedPAC), Report to the Congress:
                    Variation and Innovation in Medicare, June 2003, pp. 71, 84. Accessed at
                    http://www.medpac.gov/publications/congressional_reports/June03_Ch5.pdf on
                    August 27, 2013. See also MedPAC, Assessing Payment Adequacy and Updating
                    Payments: Hospital Inpatient and Outpatient Services, December 12, 2013. Accessed at
                    http://www.medpac.gov/transcripts/hospital dec 2013 public presentation.pdf on
                    December 20, 2013.
                    2
                      Social Security Act, § 1861(ccc), 42 U.S.C. 1395x(ccc). 42 CFR pt. 482 defines the
                    conditions of participation for hospitals. 42 CFR pt. 489 specifies the terms of provider
                    agreement for hospitals. 42 CFR § 412.23(e)(2) defines LTCHs as having an average
                    length of stay greater than 25 days for Medicare beneficiaries.
                    3
                      OIG analysis of 2010 and 2011 Part A Standard Analytical Files, 2013.

Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)       1
                    LTCH companies (i.e., chains) own more than half of all LTCHs. Many of
                    the remaining LTCHs belong to smaller chains.4
                    From 2004 to 2007, Medicare spending on LTCH services increased by
                    22 percent, from $3.7 billion to $4.5 billion.5 The number of LTCHs also
                    increased by 22 percent during this time.6 In December 2007, Congress
                    established a moratorium on new LTCHs and on new beds in existing
                    LTCHs, questioning whether this dramatic growth was due to an increase
                    in clinical need or a means to gain Medicare profits.7 The LTCH
                    moratorium expired in December 2012, but LTCH chains appear to be
                    opening new facilities or increasing the number of beds in existing LTCHs
                    at low rates, rather than at the high rates seen before.8, 9
                    Medicare Prospective Payment System for LTCHs
                    In October 2002, the Centers for Medicare & Medicaid Services (CMS)
                    established a prospective payment system for LTCHs.10 This prospective
                    payment system uses the inpatient Medicare severity diagnosis related
                    group (MS-DRG) classification system that hospitals use, with




                    4
                      MedPAC, Report to the Congress: Medicare Payment Policy, March 2012, pp. 258,
                    267. Accessed at http://www.medpac.gov/chapters/Mar12_Ch10.pdf on November 13, 

                    2013. 

                    5
                      Ibid., p. 267. 

                    6
                      Ibid., p. 266.

                    7
                      The Medicare, Medicaid, and SCHIP Extension Act of 2007, P.L. No. 110-173, 

                    § 114(d). The Patient Protection and Affordable Care Act (ACA), P.L. No. 111-148, 

                    §§ 3106(b) and 10312(b), extended the moratorium through 2012. See also Pete Stark,

                    Introduction of the LTCH Moratorium Act, Congressional Record, Volume 150, 

                    Number 16 (February 10, 2004). Accessed at http://www.gpo.gov/fdsys/pkg/CREC-
                    2004-02-10/html/CREC-2004-02-10-pt1-PgE135-3.htm on December 3, 2013. 

                    8
                      ACA, §§ 3106(b) and 10312(b). 

                    9
                      MedPAC, Report to the Congress: Medicare Payment Policy, March 2014, p. 275. 

                    Accessed at http://www.medpac.gov/documents/Mar14_entirereport.pdf on April 3, 

                    2014. 

                    10
                       A prospective payment system is a method of reimbursement in which Medicare pays

                    providers on the basis of a predetermined, fixed amount. The payment amount for a
                    particular service is derived from the classification system for that service (e.g., diagnosis
                    related group). CMS, Prospective Payment Systems—General Information. Accessed at
                    http://www.cms.gov/Medicare/Medicare-Fee-for-Service-Payment/ProspMedicareFee
                    SvcPmtGen/index.html?redirect=/prospmedicarefeesvcpmtgen/ on October 10, 2013.

Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)            2
                    relative weights to account for resource utilization specific to LTCHs (i.e.,
                    MS-LTC-DRG).11, 12
                    Each beneficiary’s stay is grouped into an MS-LTC-DRG based on
                    diagnoses (including secondary diagnoses), procedures performed, age,
                    gender, and discharge status.13 This grouping reflects the typical resources
                    used for treating an LTCH beneficiary. Each MS-LTC-DRG has a
                    predetermined average length of stay, which CMS updates annually
                    according to LTCH discharge data. LTCHs are paid according to each
                    beneficiary’s MS-LTC-DRG and do not receive per diem payments.14, 15
                    Therefore, excluding adjustments, the LTCH receives the same payment
                    for all stays with a certain MS-LTC-DRG, regardless of the length of
                    stay.16
                    Interruptions and Readmissions in LTCHs
                    Beneficiaries may leave an LTCH during their stay and return to the LTCH
                    at a later date. A return to the same LTCH will result in either an
                    interrupted stay or a readmission, depending on how long the beneficiary
                    was away from the LTCH and where he/she received additional services,
                    if any. The LTCH interrupted-stay policy aims to save Medicare money
                    by treating certain LTCH stays before and after an absence (an



                    11
                       The Medicare, Medicaid, and SCHIP Balanced Budget Refinement Act of 1999,
                    P.L. No. 106-113 § 123, as amended by the Medicare, Medicaid, and SCHIP Benefits
                    Improvement and Protection Act of 2000, P.L. No. 106-554 § 307. See also: CMS,
                    Elements of LTCH PPS. Accessed at http://www.cms.gov/Medicare/Medicare-Fee-for-
                    Service-Payment/LongTermCareHospitalPPS/elements_ltch.html on December 20, 2013.
                    12
                       Two LTCHs in Maryland are paid in accordance with demonstration projects under the
                    Maryland hospital waiver and are thus not subject to payments under the prospective
                    payment system. Novitas Solutions, Provider Audit & Reimbursement Part A: Maryland
                    Waiver. Accessed at https://www.novitas-solutions.com/parta/arcenter/reimb-ref/md-
                    waiver.html on August 27, 2013. (Note: Link no longer works.) These LTCHs are not
                    included in our analysis.
                    13
                       CMS, Medicare Learning Network Fact Sheet, Long Term Care Hospital Prospective
                    Payment System: Interrupted Stay, December 2012, p. 2. Accessed at
                    http://www.cms.gov/Outreach-and-Education/Medicare-Learning-Network-
                    MLN/MLNProducts/downloads/ltch-intstay.pdf on August 22, 2013. 

                    14
                       42 CFR § 412.521.

                    15
                       A beneficiary’s MS-LTC-DRG may change during an LTCH stay. In such a case, 

                    LTCHs are paid according to the beneficiary’s MS-LTC-DRG on the discharge date.

                    16
                       Adjustments include facility-level and case-level adjustments. Facility-level 

                    adjustments include adjustments for differences in area wages and cost of living for

                    LTCHs in Hawaii and Alaska. CMS, Elements of LTCH PPS. Accessed at 

                    http://www.cms.gov/Medicare/Medicare-Fee-for-Service-Payment/LongTermCare
                    HospitalPPS/elements_ltch.html on August 26, 2013. Case-level adjustments include
                    short-stay outlier payments, which are reduced payments for certain shorter LTCH stays;
                    and high-cost outlier payments, which are increased payments for LTCH stays that meet
                    a cost threshold. CMS, Medicare Claims Processing Manual, Pub. 100-04, ch. 3
                    §§ 150.9.1.1 and 150.9.1.5.

Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)     3
                    interruption) as a single episode of care, rather than paying LTCHs for two
                    separate stays.
                    Interruptions. An interruption occurs when a beneficiary leaves an LTCH
                    and returns to the same LTCH for further medical treatment within a
                    specific number of days.17 During the interruption, the beneficiary may
                    receive services at an intervening facility that are not available at the
                    LTCH. An intervening facility may be a hospital, an inpatient
                    rehabilitation facility, or a SNF or “swing bed.”18 The interruption begins
                    on the first day that the beneficiary is away from the LTCH and continues
                    until the beneficiary returns to the same LTCH.19 A beneficiary may have
                    multiple interruptions during one LTCH stay. The term “interrupted stay”
                    refers to an LTCH stay with one or more interruptions.
                    There are two types of interruptions in LTCH stays, defined by the length
                    of the interruption: 3-day-or-less interruptions and greater-than-3-day
                    interruptions. Excluding any adjustments, the total Medicare payment to
                    the LTCH is the same for a stay with a 3-day-or-less interruption and a
                    stay with a greater-than-3-day interruption. However, the method of
                    paying intervening facilities differs.
                    During a 3-day-or-less interruption, beneficiaries may receive services
                    from one or more intervening facilities or return home without receiving
                    additional services before returning directly to the LTCH. CMS considers
                    this interruption to be part of a single LTCH stay. CMS makes one
                    payment to the LTCH based on the beneficiary’s MS-LTC-DRG at
                    discharge.20 The LTCH must pay the intervening facility, or facilities,
                    under arrangements for any services provided during the interruption.21
                    CMS has system “edits” (i.e., automated system processes) to prevent
                    payments to intervening facilities for services provided during a

                    17
                       42 CFR § 412.531. See also CMS, Medicare Learning Network Fact Sheet, Long Term
                    Care Hospital Prospective Payment System: Interrupted Stay, December 2012, p. 1.
                    Accessed at http://www.cms.gov/Outreach-and-Education/Medicare-Learning-Network-
                    MLN/MLNProducts/downloads/ltch-intstay.pdf on August 22, 2013.
                    18
                       A “swing bed” is a hospital bed for which reimbursement is made for skilled nursing
                    services. Hospitals that have received approval from CMS use “swing beds” to provide
                    hospital- or SNF-level care, as needed. Social Security Act, § 1883, 42 U.S.C. § 1395tt.
                    19
                       CMS, Medicare Learning Network Fact Sheet, Long Term Care Hospital Prospective
                    Payment System: Interrupted Stay, December 2012, p. 5. Accessed at
                    http://www.cms.gov/Outreach-and-Education/Medicare-Learning-Network-
                    MLN/MLNProducts/downloads/ltch-intstay.pdf on August 22, 2013. 

                    20
                       42 CFR § 412.531(b)(1)(ii)(A).

                    21
                       “Under arrangements” means that the LTCH bills and is paid by Medicare for a 

                    beneficiary’s stay, and the LTCH is then responsible for paying the intervening facility or

                    facilities. Medicare does not make a separate payment to intervening facilities for 

                    services provided during a 3-day-or-less interruption. See Social Security Act, 

                    § 1861(w), 42 U.S.C. § 1395x (w).


Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)         4
                    3-day-or-less interruption.22 See Appendix B for an example of payments
                    for a stay with a 3-day-or-less interruption.
                    During a greater-than-3-day interruption, beneficiaries receive services
                    from one intervening facility and do not return home before returning
                    directly to the LTCH. CMS makes a separate payment to the intervening
                    facility for services provided during a greater-than-3-day interruption.23 If
                    a beneficiary’s return to the same LTCH occurs between 4 days and a
                    certain maximum number of days (i.e., the fixed-day period), CMS
                    considers it a continuation of the original LTCH stay and will pay the
                    LTCH for one stay upon the beneficiary’s discharge. The fixed-day period
                    varies by the type of intervening facility from which the beneficiary
                    receives services:
                             4–9 days for hospitals,
                             4–27 days for inpatient rehabilitation facilities, and
                             4–45 days for SNFs or swing beds.24
                    For these stays, Medicare makes one payment to the LTCH based on the
                    beneficiary’s MS-LTC-DRG at discharge and a separate payment to the
                    intervening facility. CMS has system edits to prevent payments to LTCHs
                    for a new stay if a beneficiary returns to the LTCH within the fixed-day
                    period.25
                    Readmissions. If a beneficiary returns to the same LTCH after the
                    fixed-day period, CMS considers it a readmission rather than an



                    22
                       CMS Manual System, Pub. 100-04 Medicare Claims Processing, Transmittal 1001,
                    July 21, 2006. Accessed at http://www.cms.gov/Regulations-and-
                    Guidance/Guidance/Transmittals/Downloads/R1001CP.pdf on August 22, 2013. Edits
                    validate claims data by detecting errors or potential errors and verifying that certain data
                    are consistent and appropriate. CMS, Medicare Administrative Contractor Workload
                    Implementation Handbook (Legacy-to-MAC), pp. 4–8. February 2012. Accessed at
                    http://www.cms.gov/Medicare/Medicare-Contracting/Medicare-Administrative-
                    Contractors/Downloads/Handbooks/Legacy2MACImp.pdf on October 10, 2013.
                    23
                       CMS, Medicare Learning Network Fact Sheet, Long Term Care Hospital Prospective
                    Payment System: Interrupted Stay, December 2012, p. 4. Accessed at
                    http://www.cms.gov/Outreach-and-Education/Medicare-Learning-Network-
                    MLN/MLNProducts/downloads/ltch-intstay.pdf on August 22, 2013.
                    24
                       If a beneficiary returns to an LTCH after spending 3 or more days at home, CMS
                    considers this to be a readmission rather than an interrupted stay. CMS, Medicare
                    Learning Network Fact Sheet, Long Term Care Hospital Prospective Payment System:
                    Interrupted Stay, December 2012, p. 4. Accessed at http://www.cms.gov/Outreach-and-
                    Education/Medicare-Learning-Network-MLN/MLNProducts/downloads/ltch-intstay.pdf
                    on August 22, 2013. 

                    25
                       CMS Manual System, Pub. 100-04 Medicare Claims Processing, Transmittal 1001, 

                    July 21, 2006. Accessed at http://www.cms.gov/Regulations-and-
                    Guidance/Guidance/Transmittals/Downloads/R1001CP.pdf on August 22, 2013.


Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)           5
                           interruption and will pay the LTCH for two separate stays.26 CMS also
                           makes a separate payment to the intervening facility. See Figure 1 for an
                           example of payments for a stay with a greater-than-3-day interruption
                           versus payments for a readmission for a common MS-LTC-DRG.27
                           Figure 1: Comparison of Total Payments to an LTCH for a Stay With a
                           Greater-Than-3-Day Interruption and Payments for a Readmission for
                           MS-LTC-DRG 207


Stay With a Greater-Than-3-Day Interruption                                                            Readmission


                   LTCH stay                                                                              LTCH stay
                                                                                                                           Payment to LTCH for
Length: 30 days                     No payment to LTCH                              Length: 30 days                         MS-LTC-DRG 207*
                                                                                                                               $80,158.22




  Intervening-hospital stay within the                                            Intervening-hospital stay greater than the
           fixed-day period                                                                   fixed-day period
                                CMS pays hospital for services                                                        CMS pays hospital for services
Length: 5 days                                                                      Length: 10 days
                                         provided                                                                              provided




          Continued LTCH stay                                                                         New LTCH stay
                                    Payment to LTCH for                                                                   2nd payment to LTCH for
Length: 20 days                      MS-LTC-DRG 207:                                 Length: 20 days                        MS-LTC-DRG 207:
                                        $80,158.22                                                                              $80,158.22




Total Medicare payments to LTCH:                                                   Total Medicare payments to LTCH:
           $80,158.22                                                                         $160,316.44
        *Payments reflect fiscal year (FY) 2011 LTCH Prospective Payment System rates and do not include any potential case-level or 

        facility-level adjustments. 

        Source: Office of Inspector General (OIG) analysis of interrupted-stay policy and 2011 LTCH Prospective Payment System 

        Reimbursement Rates, 2013. 



                           Additionally, if a beneficiary returns to the LTCH within the fixed-day
                           period but has received services from more than one intervening facility,



                           26
                              In this report, unless otherwise stated, the term “readmission” refers specifically to
                           direct readmissions or those involving one LTCH and one intervening facility with no
                           days between discharge and readmission.
                           27
                              MS-LTC-DRG 207 is for respiratory system diagnosis with ventilator support for
                           96+ hours. This was the most common MS-LTC-DRG in 2010 and 2011, accounting for
                           11 percent of all LTCH stays during this period.

     Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)                                6
                    CMS considers the return to be a readmission, regardless of the total
                    length of stay at the intervening facilities.28
                    Policies for Co-Located LTCHs
                    An LTCH can be freestanding or co-located with another provider (e.g., a
                    hospital or SNF). A co-located LTCH is located in the same building as
                    another provider or in a separate building on the same campus as another
                    provider.29 An LTCH may also have a satellite facility, which operates as
                    part of the LTCH but in a separate location.30 A satellite facility can also
                    be co-located with another provider.
                    Interrupted Stays for Co-Located LTCHs. In 2002, CMS established a
                    payment adjustment that applies if the number of discharges and
                    readmissions between an LTCH and a co-located provider exceeds
                    5 percent of the LTCH’s total Medicare discharges to that provider during
                    a cost-reporting period. If an LTCH exceeds this threshold, all
                    readmissions from the co-located provider are to be paid for as interrupted
                    stays, regardless of the number of days spent away from the LTCH.31 For
                    example, if an LTCH discharged 40 patients to a co-located hospital and
                    readmitted 10 of those patients during the same cost-reporting period, the
                    LTCH exceeded the 5-percent threshold because it readmitted 25 percent
                    of the patients discharged to a co-located hospital. Therefore, all 10 of the
                    stays will be treated as interrupted stays rather than readmissions, and the
                    LTCH will be subject to a payment adjustment and receive only 1 payment
                    for each of the 10 stays instead of 2 payments. CMS calculates the
                    5-percent readmission threshold separately for (1) all discharges and
                    readmissions between co-located LTCHs and hospitals; and (2) all
                    discharges and readmissions between co-located LTCHs and inpatient
                    rehabilitation facilities, SNFs or swing beds, and/or psychiatric facilities.32



                    28
                       CMS, Medicare Learning Network Fact Sheet, Long Term Care Hospital Prospective 

                    Payment System: Interrupted Stay, December 2012, p. 4. Accessed at 

                    http://www.cms.gov/Outreach-and-Education/Medicare-Learning-Network-
                    MLN/MLNProducts/downloads/ltch-intstay.pdf on August 22, 2013. 

                    29
                       42 CFR § 413.65. “Campus” means the physical area immediately adjacent to the 

                    provider’s main buildings, other areas and structures that are not strictly contiguous to the 

                    main buildings but are located within 250 yards of the main buildings, and any other 

                    areas that the CMS regional office determines (on an individual-case basis) to be part of 

                    the provider’s campus.

                    30
                       42 CFR § 412.22(h).

                    31
                       67 Fed. Reg. 55954, 56053–56054 (August 30, 2002), codified at 42 CFR § 412.532. 

                    A similar payment adjustment was established in 1999 specifically for LTCHs that were 

                    located within a hospital. 67 Fed. Reg. 56005–56007. 

                    32
                       42 CFR § 412.532(c)–(d). There is no interrupted-stay policy or fixed-day period for 

                    psychiatric facilities. However, CMS includes these facilities in the 5-percent 

                    readmission threshold for co-located LTCHs.


Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)           7
                    Reporting Requirements for Co-Located LTCHs. A co-located LTCH
                    must notify its Medicare Administrative Contractor (MAC) about the
                    provider(s) with which it is co-located within 60 days of its first
                    cost-reporting period.33, 34 Additionally, an LTCH must report a change in
                    co-located status within 60 days of the change. The MAC should notify
                    the appropriate CMS regional office of an LTCH’s co-located status.35
                    Related OIG Work
                    In 2004, OIG found that 19 of 87 “hospitals-within-hospitals”—i.e.,
                    LTCHs that are co-located specifically with acute-care hospitals—
                    exceeded the 5-percent threshold for readmissions from their host
                    hospitals at least once during their fiscal years ending in September 2000
                    through December 2002.36 Additionally, OIG found that CMS lacked a
                    system to detect readmissions over the 5-percent threshold. In its response
                    to this 2004 report, CMS stated that it was formulating an effective
                    program to enable claims processing contractors to enforce this threshold.
                    Further, in 2008, OIG found that discharge patterns for short-stay
                    outliers—i.e., stays that end before they reach five-sixths of the average
                    length of stay for the patient’s MS-LTC-DRG—in LTCHs raised questions
                    as to whether financial incentives, rather than beneficiaries’ condition,
                    triggered discharges.37
                    In 2009, OIG found that 448 of 986 inpatient rehabilitation facilities did
                    not bill correctly for interrupted stays during 2004 and 2005; as a result,
                    Medicare made overpayments of $4.2 million.38 These inpatient
                    rehabilitation facilities incorrectly billed for interrupted stays as two or
                    more stays instead of single stays.
                    Finally, in March 2013, OIG issued an early alert memorandum to CMS to
                    report the preliminary finding that co-located LTCHs remained




                    33
                       42 CFR § 412.532(i). See also: CMS, Medicare Claims Processing Manual,
                    Pub. 100-04, ch. 3, § 150.9.1.4. CMS uses contractors known as MACs and Fiscal
                    Intermediaries to process Part A claims. The Medicare Prescription Drug, Improvement,
                    and Modernization Act of 2003, P.L. No. 108-173 § 911, required CMS to replace Fiscal
                    Intermediaries with MACs. CMS was completing this transition at the time of our
                    review. In this report, we refer to both types of contractors as MACs.
                    34
                       A cost-reporting period is an annual period selected by providers for Medicare
                    cost-reporting purposes. Cost-reporting periods vary among providers. CMS, Medicare
                    Provider Reimbursement Manual, Part 2, ch. 1, § 102.
                    35
                       CMS, Medicare Claims Processing Manual, Pub. 100-04, ch. 3, § 150.9.1.4.
                    36
                       OIG, Long-term Care Hospitals-within-Hospitals, OEI-01-02-00630, July 2004.
                    37
                       OIG, Long Term Care Hospital Short-Stay Outliers, OEI-01-07-00290, March 2008.
                    38
                       OIG, Review of Interrupted Stays at Inpatient Rehabilitation Facilities for Calendar
                    Years 2004 and 2005, A-01-08-00502, April 2009.

Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)      8
                    unidentified and that potential overpayments could result. 39 Since this
                    early alert memorandum was issued, CMS has begun to review the co-
                    located status of the LTCHs identified in this report. Additionally, CMS
                    cited the report in its 2014 LTCH Prospective Payment System Final Rule,
                    published in August 2013, and urged co-located LTCHs that had not
                    fulfilled the reporting requirement to do so immediately.40

                    METHODOLOGY
                    We analyzed the population of 310,860 claims submitted by LTCHs from
                    CMS’ National Claims History Part A Standard Analytical Files for 2010
                    and 2011. We also analyzed intervening facility claims from 2010 and
                    2011, which included claims submitted by hospitals, inpatient
                    rehabilitation facilities, SNFs or swing beds, and psychiatric facilities for
                    beneficiaries who had LTCH stays in 2010 and/or 2011.
                    We were generally unable to identify 3-day-or-less interruptions using
                    Medicare claims data because these types of interruptions are not
                    identified on claims, and intervening facilities should not submit claims
                    for services provided during these interruptions.41 Therefore, unless
                    otherwise specified, the term “interruption” hereinafter refers to a
                    greater-than-3-day interruption.
                    Identifying Interruptions
                    We analyzed claims submitted by LTCHs and intervening facilities from
                    2010 and 2011 to identify interruptions. We first identified LTCH claims
                    indicating that a leave of absence occurred during the stay.42 We analyzed
                    claims from intervening facilities to identify those that had the same
                    service dates as the leave of absence from the LTCH stay. If an LTCH
                    claim had a corresponding intervening-facility claim with service dates
                    that matched the leave of absence, we considered it to be an interruption.
                    We determined the number of LTCH stays with interruptions in 2010 and
                    2011 and their length. We also determined the number of LTCHs, the
                    types of intervening facilities, and the MS-LTC-DRGs associated with
                    interruptions.



                    39
                       OIG, Early Alert Memorandum Report: Co-Located Long-Term Care Hospitals
                    Remain Unidentified, Resulting in Potential Overpayments, OEI-04-12-00491,
                    March 2013.
                    40
                       78 Fed. Reg. 50496, 50771–50772 (August 19, 2013). 

                    41
                       In some cases, intervening facilities inappropriately submitted claims for 3-day-or-less 

                    interruptions, enabling us to identify some 3-day-or-less interruptions. OIG analysis of 

                    2010 and 2011 Part A Standard Analytical Files, 2013. 

                    42
                       Span code 74 on a Part A claim indicates a leave of absence. 


Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)          9
                    Identifying Inappropriate Payments for Interrupted Stays
                    We analyzed claims submitted by LTCHs and intervening facilities to
                    identify two types of inappropriate payments:
                    (1) to LTCHs for readmissions after stays at intervening facilities within
                        the fixed-day period (i.e., stays that should have been paid as
                        interruptions rather than readmissions) and
                    (2) to intervening facilities for services provided during 3-day-or-less
                        interruptions (i.e., services that should have been paid for by the LTCH
                        under arrangements rather than paid by CMS to the intervening
                        facility).
                    First, to identify readmissions, we selected three consecutive claims for
                    beneficiaries: (1) an LTCH claim, (2) a claim from an intervening facility,
                    and (3) a claim from the original LTCH. If the length of the intervening
                    facility stay was within the fixed-day period, we estimated inappropriate
                    payments by summing the reimbursement amounts of the second LTCH
                    claim.43
                    Second, using the same claims sequences, we identified
                    intervening-facility claims with lengths of stay of 3 days or less.44 We also
                    identified intervening-facility claims that overlapped with LTCH stays and
                    had lengths of stay of 3 days or less. We considered both types of
                    payments to intervening facilities to be inappropriate and summed the
                    reimbursement amounts.
                    Identifying LTCHs With a High Number of Readmissions
                    Immediately After the Fixed-Day Period
                    Using the service dates on the hospital claim, we determined the length of
                    stay at an intervening hospital for all interruptions and readmissions. We
                    limited this analysis to interruptions and readmissions involving hospitals
                    because there were few interruptions and readmissions involving inpatient
                    rehabilitation facilities, SNFs, or swing beds.45 We compared the number
                    of beneficiary returns to each LTCH on the 9th day (i.e., the last day of the
                    fixed-day period for hospitals) and 10th day (i.e., immediately after the

                    43
                       The services provided during the second LTCH stay should have been included in the
                    claim for the first LTCH stay. Therefore, the total reimbursement for the second LTCH
                    stay may not equal the total amount of inappropriate payments after adjusting the claim
                    for the first stay to reflect all services.
                    44
                       These stays should have resulted in a single stay with a 3-day-or-less interruption
                    rather than three separate stays. Therefore, we considered the payment to the intervening
                    facility to be inappropriate, as well as the payment for the second LTCH stay.
                    45
                       In 2010 and 2011, there were 19 interruptions and 3 readmissions involving inpatient
                    rehabilitation facilities. There were 118 interruptions and 228 readmissions involving
                    SNFs or swing beds. However, there were approximately 9,000 interruptions and
                    approximately 5,000 readmissions involving hospitals.

Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)       10
                    fixed-day period for hospitals) of a hospital stay and identified LTCHs
                    with a high number of readmissions on the 10th day. These readmissions
                    resulted in additional LTCH payments.
                    We analyzed LTCHs with a high number of readmissions immediately
                    after the fixed-day period by State and chain. We identified chains using
                    Web sites and information from the National Plan and Provider
                    Enumeration System (e.g., legal business name, authorized official, and
                    business address). For example, LTCHs that are part of the same chain
                    often share a legal business name and/or have the same authorized official
                    and business address.
                    Identifying LTCHs With a High Number of Readmissions
                    Following Multiple Short Stays in Intervening Facilities
                    If a beneficiary receives services consecutively from two or more
                    intervening facilities and then returns to the same LTCH after 3 days, the
                    beneficiary’s return is considered a readmission and results in an
                    additional LTCH payment, regardless of the combined lengths of stay at
                    the intervening facilities.
                    To identify short stays in separate intervening facilities, we identified
                    sequences of four claims for beneficiaries with no days in between: (1) an
                    LTCH claim, (2) an intervening facility claim, (3) a claim from a different
                    intervening facility, (4) a claim from the original LTCH. We also analyzed
                    sequences of five claims to identify readmissions occurring after three
                    intervening facility claims. We considered stays at intervening facilities to
                    be short if the combined length of stay was greater than 3 days, but less
                    than or equal to 9 days (i.e., the shortest fixed-day period).46 We identified
                    LTCHs with a high number of these readmissions and analyzed them by
                    State and chain. We summed the reimbursement amount for the second
                    LTCH claim in the sequence to estimate the potential savings to Medicare
                    had these stays been paid for as interrupted stays, rather than
                    readmissions.47




                    46
                       If the combined length of stay was 3 days or less, this should be considered a
                    3-day-or-less interruption, during which beneficiaries may receive services from multiple
                    intervening facilities that should not separately bill Medicare. We did not identify any
                    payments for short stays with a total length of 3 days or less.
                    47
                       The services provided during the second LTCH stay would be included in the claim for
                    the first LTCH stay. Therefore, the total reimbursement for the second LTCH stay may
                    not equal the total amount of potential savings after adjusting the claim for the first stay
                    to reflect all services.

Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)          11
                    Determining the Co-Located Status of LTCHs and the Extent to
                    Which Co-Located LTCHs Exceeded the 5-Percent
                    Readmission Threshold
                    We requested information on LTCHs’ co-located status from MACs and
                    then independently determined their co-located status to validate MAC
                    responses. To determine whether LTCHs were co-located, we obtained
                    addresses from the Services Tracking, Analysis, and Reporting System
                    (STARS) database for LTCHs; hospitals; inpatient rehabilitation facilities;
                    SNFs or swing beds; and psychiatric hospitals that billed Medicare in
                    2010 and/or 2011.48 We used LTCHs’ Web sites to obtain addresses of
                    their satellite facilities. We then used BatchGeo and Google Maps to
                    determine whether an LTCH’s campus was less than 250 yards away from
                    another provider’s campus pursuant to 42 CFR § 413.65.49, 50
                    To determine the number of co-located LTCHs that exceeded the 5-percent
                    readmission threshold, we first calculated the number of discharges an
                    LTCH made to each co-located provider during its cost-reporting period.
                    We then calculated the number of readmissions between an LTCH and
                    each of its co-located providers and determined whether this number was
                    greater than 5 percent of the total discharges to that provider.
                    Limitations
                    We were unable to identify the addresses of satellite facilities for all
                    hospitals, independent rehabilitation facilities, and SNFs. Therefore, we
                    may have underestimated the number of co-located LTCHs and/or the
                    number of providers with which they are co-located. Further, our findings
                    are based on an analysis of claims data, rather than medical
                    documentation; we did not determine whether the lengths of stay at
                    intervening facilities were appropriate.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspection and Evaluation issued by the Council of the Inspectors General
                    on Integrity and Efficiency.




                    48
                       Five LTCHs that billed Medicare in 2010 and/or 2011were not in the STARS database.
                    We obtained the address of these LTCHs using the National Plan & Provider
                    Enumeration System’s online National Provider Identifier Registry.
                    49
                       BatchGeo is a free online mapping tool that generates maps from location data saved in
                    spreadsheets. 

                    50
                       Google Maps is a free online mapping tool that produces street maps and satellite 

                    images of requested locations and can measure distance between selected geographic 

                    points. 


Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)       12
                    FINDINGS
                    Nearly all interruptions and readmissions occurred
                    between LTCHs and hospitals
                    Returning to an LTCH after an intervening-facility stay results in an
                    interrupted stay or a readmission, depending on the length of stay at the
                    intervening facility.
                         	 Of the 449 LTCHs that billed Medicare in 2010 or 2011, 422 had at
                            least 1 interrupted stay. In 2010 and 2011, 8,823 interruptions
                            occurred during 8,350 interrupted stays, representing 3 percent of all
                            LTCH stays. The number of interruptions for each LTCH ranged
                            from 1 to 209.
                         	 In 2010 and 2011, 427 LTCHs had at least 1 readmission. There
                            were 5,659 readmissions in 2010 and 2011, representing 2 percent
                            of all LTCH stays. The number of readmissions for each LTCH
                            ranged from 1 to 95.
                    For nearly all interruptions and readmissions in 2010 and 2011, the
                    intervening facility was a hospital. Table 1 shows the number of
                    interruptions and readmissions by type of intervening facility for 2010 and
                    2011.
                    Table 1: Interruptions and Readmissions by Type of Intervening Facility,
                    2010–2011

                          Type of Intervening Facility                     Interruptions     Readmissions

                          Hospital                                                  8,686                 5,428

                          Inpatient Rehabilitation Facility                            19                    3

                          SNF or Swing Bed                                            118                  228

                             Total                                                  8,823                 5,659

                          Source: OIG analysis of 2010 and 2011 Part A Standard Analytical Files, 2013.




                    Medicare inappropriately paid $4.3 million to LTCHs
                    and intervening facilities for interrupted stays
                    From 2010 to 2011, Medicare inappropriately paid $4.3 million for
                    interrupted stays in LTCHs. The inappropriate payments were
                    (1) to LTCHs for readmissions after stays at intervening facilities within
                        the fixed-day period (i.e., stays that should have been paid for as
                        interruptions rather than readmissions) and



Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)              13
                    (2) to intervening facilities for services provided during 3-day-or-less
                        interruptions (i.e., services that should have been paid for by the LTCH
                        under arrangements rather than paid directly by Medicare to the
                        intervening facilities).
                    Medicare inappropriately paid $3.8 million to LTCHs for
                    readmissions after stays at intervening facilities within the
                    fixed-day period
                    If a beneficiary receiving services at an intervening facility returns to the
                    same LTCH within the fixed-day period, then CMS considers it an
                    interrupted stay rather than a readmission and should pay the LTCH for
                    one stay rather than two stays. However, Medicare inappropriately paid
                    an estimated $3.8 million to 87 LTCHs in 2010 and 2011 because it paid
                    LTCHs for a second stay, or readmission, after a beneficiary returned from
                    an intervening facility within the fixed-day period.51 This represents less
                    than one-tenth of a percent of all Medicare payments to LTCHs. Most
                    (96 of 132) of these inappropriately paid readmissions followed
                    intervening SNF stays.
                    Medicare inappropriately paid approximately $523,000 to
                    intervening facilities for services provided during interruptions
                    of 3 days or less
                    Intervening facilities should not submit claims to Medicare for services
                    provided during 3-day-or-less interruptions, as these facilities are paid for
                    the services by the LTCH under arrangements. However, Medicare
                    inappropriately paid $523,079 to 50 intervening facilities for services
                    provided during 3-day-or-less interruptions in 2010 and 2011. For nearly
                    all (58 of 59) of these 3-day-or-less interruptions for which Medicare
                    inappropriately paid, the intervening facility was a hospital.52
                    Financial incentives in the interrupted-stay policy may
                    influence the readmission decisions of some LTCHs
                    Returning to the same LTCH after an intervening-facility stay results in an
                    interrupted stay or a readmission, depending on the length of stay at the
                    intervening facility. Medicare pays LTCHs for a new stay following a
                    readmission to the LTCH after the fixed-day period. Therefore,
                    readmitting beneficiaries immediately after the fixed-day period, rather
                    than during the fixed-day period, results in additional Medicare payments
                    to the LTCHs.

                    51
                       This figure is an estimate because CMS must adjust the claim for the first stay to
                    reflect services provided during both LTCH stays. 

                    52
                       For the remaining inappropriate payment, the intervening facility was an independent 

                    rehabilitation facility.


Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)        14
                    Fifty-nine LTCHs had a high number of readmissions from hospitals
                    immediately after the fixed-day period, allowing them to receive
                    additional payments more often than other LTCHs. This raises concerns
                    about whether financial incentives, rather than beneficiaries’ conditions,
                    influenced readmission decisions of some LTCHs. In 2010 and 2011,
                    Medicare paid $12 million for readmissions immediately after the fixed-
                    day period in these 59 LTCHs.53
                    Additionally, CMS considers it a readmission, which results in an
                    additional LTCH payment, if beneficiaries receive services at more than
                    one intervening facility, regardless of whether the combined length of stay
                    at the intervening facilities is within the fixed-day period. In 2010 and
                    2011, Medicare paid LTCHs $8.2 million for 259 readmissions that
                    occurred after 2 or more short stays at intervening facilities.
                    Fifty-nine LTCHs had a high number of readmissions
                    immediately after the fixed-day period; as a result, additional
                    LTCH payments were made
                    In 2010 and 2011, beneficiaries left LTCHs to receive services from
                    intervening hospitals and returned to the same LTCHs approximately
                    14,000 times. Of these returns, 5,428 occurred after the fixed-day period
                    for hospitals and resulted in readmissions, and second payments, for
                    424 LTCHs. Most (264 of 424) LTCHs had the same number or fewer
                    returns after a 10-day hospital stay (i.e., immediately after the fixed-day
                    period) than after a 9-day hospital stay (i.e., the last day of the fixed-day
                    period). Sixty-nine LTCHs had 1 more, and 32 LTCHs had 2 more returns
                    immediately after the fixed-day period than on the last day of the
                    fixed-day period. We considered the remaining 59 LTCHs with at least
                    3 more returns immediately after the fixed-day period to have a high
                    number of these readmissions. See Figure 3 for a comparison of the
                    percentage of intervening hospital stays ending during and after the
                    fixed-day period for these 59 LTCHs and all other LTCHs with at least
                    1 readmission.




                    53
                      Medicare paid $31.2 million to the 365 LTCHs with 2 or fewer returns immediately
                    after the fixed-day period, resulting in a total of $43.2 million for all returns immediately
                    after the fixed-day period.

Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)            15
                                                             Figure 3: Percentage of Interruptions and Readmissions by Length of
                                                             Intervening Hospital Stay, 2010 and 2011

                                                           16%                                 Fixed-Day Period Ends


            Percentage of Interruptions and Readmissions                        Interruptions                                 Readmissions*
                                                           14%


                                                           12%


                                                           10%                                                                                                  LTCHs With Three or
                                                                                                                                                                More Readmissions
                                                                                                                                                                Immediately After the
                                                           8%                                                                                                   Fixed-Day Period

                                                                                                                                                                LTCHs With Two or
                                                           6%
                                                                                                                                                                Fewer Readmissions
                                                                                                                                                                Immediately After the
                                                                                                                                                                Fixed-Day Period
                                                           4%


                                                           2%


                                                           0%
                                                                    4       5       6      7       8       9     10      11      12     13      14      15

                                                                                  Length of Intervening-Hospital Stay (Days)
                                                             *Additionally, 17 percent (556) and 14 percent (1,529) of returns occurred after intervening hospital stays lasting

                                                             16 days or longer for LTCHs with a high number of readmissions immediately after the fixed-day period and all 

                                                             remaining LTCHs, respectively. 

                                                             Source: OIG analysis of 2010 and 2011 Part A Standard Analytical Files, 2013. 



                                                             For the 59 LTCHs with a high number of readmissions immediately after
                                                             the fixed-day period, 12 percent (380 of 3,222) of all returns took place
                                                             immediately after the fixed-day period compared to only 5 percent
                                                             (578 of 10,817) for the remaining 365 LTCHs. Medicare paid $12 million
                                                             in 2010 and 2011 for readmissions occurring immediately after the
                                                             fixed-day period in the 59 LTCHs with a high number of these
                                                             readmissions. Therefore, only 14 percent of LTCHs with at least
                                                             1 readmission (59 of 424 LTCHs) accounted for approximately 38 percent
                                                             of all Medicare payments for readmissions occurring immediately after the
                                                             fixed-day period. While the payments for these readmissions may be
                                                             appropriate, they raise concerns about whether financial incentives in the
                                                             interrupted-stay policy drive readmission decisions, rather than
                                                             beneficiaries’ conditions. Retaining beneficiaries in intervening facilities
                                                             until immediately after the fixed-day period results in an additional



Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)                                                                                16
                    payment to LTCHs, which could essentially double an LTCH’s overall
                    Medicare reimbursement.
                    Forty-five of the 59 LTCHs were part of a chain, and 23 of these LTCHs
                    were part of the same chain. The 23 LTCHs in this chain accounted for
                    38 percent of the 380 readmissions immediately after the fixed-day
                    period.54 Further, Medicare paid $4.9 million to these 23 LTCHs for
                    readmissions immediately after the fixed-day period, or 41 percent of the
                    $12 million paid to LTCHs with a high number of readmissions
                    immediately after the fixed-day period.
                    Additionally, the number of returns to these 59 LTCHs increased by over
                    200 percent immediately after the fixed-day period. For 50 of these
                    59 LTCHs, the number of returns doubled immediately after the fixed-day
                    period. Three LTCHs had more than 10 more returns immediately after
                    the fixed-day period than on the last day of the fixed-day period. These
                    59 LTCHs were located in 24 States, with the highest concentrations in
                    Texas, California, Ohio, Florida, and Massachusetts. See Appendix C for
                    the number of LTCHs with a high number of readmissions immediately
                    after the fixed-day period, by State.
                    Twenty-four LTCHs had a high number of readmissions
                    following multiple short stays at intervening facilities; as a
                    result, additional LTCH payments were made
                    In 2010 and 2011, 259 readmissions occurred after multiple stays at
                    intervening facilities with combined lengths of stay of 9 days or less (i.e.,
                    the shortest fixed-day period); as a result additional LTCH payments were
                    made.55 For 86 percent of these readmissions, the beneficiary was
                    discharged to a SNF and then to a hospital, or two separate hospitals,
                    before returning to the LTCH. Medicare paid $8.2 million to 144 LTCHs
                    for these readmissions.
                    Of the 144 LTCHs with at least 1 of these readmissions, most
                    (120 LTCHs) had 2 or less. However, there were 24 LTCHs with 3 or
                    more of these readmissions in 2010 and 2011. We considered these
                    LTCHs to have a high number of readmissions following multiple short
                    stays at intervening facilities. Medicare paid these 24 LTCHs $3.1 million
                    for readmissions following multiple short stays at intervening facilities.
                    While the payments for these readmissions may be appropriate, they raise
                    questions about whether financial incentives in the interrupted-stay policy


                    54
                       This chain represented 29 percent of all LTCH readmissions from hospitals from 2010
                    to 2011. 

                    55
                       Of these 259 readmissions, 257 occurred after 2 short stays at intervening facilities and

                    2 occurred after 3 short stays at intervening facilities.


Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)           17
                    drive discharge and readmission decisions for intervening facilities and
                    LTCHs, rather than beneficiaries’ medical conditions. Eight of these
                    24 LTCHs also had a high number of readmissions immediately after the
                    fixed-day period and 12 were part of the same chain. These LTCHs were
                    located in nine States; the highest concentrations were in California, Ohio,
                    and Texas.56
                    Approximately one-third of co-located LTCHs
                    exceeded the 5-percent readmission threshold, but
                    CMS lacks the information to apply a payment
                    adjustment
                    Of the 449 LTCHs that billed Medicare in 2010 and 2011, we identified
                    329 that were co-located with at least 1 other provider.57 The number of
                    providers with which LTCHs were co-located ranged from one to nine. Of
                    the 329 co-located LTCHs, 88 (27 percent) reported their co-located status
                    to MACs. Further, 35 percent of co-located LTCHs exceeded the 5-percent
                    readmission threshold. Without complete information on LTCHs’
                    co-located status, CMS cannot enforce the 5-percent readmission threshold
                    and apply payment adjustments to these LTCHs.
                    Co-located LTCHs had a total of 537 readmissions that should
                    have been treated as interruptions
                    CMS is supposed to apply a payment adjustment to decrease
                    reimbursements for co-located LTCHs that exceed the 5-percent
                    readmission threshold. Thirty-five percent (116 of 329) of co-located
                    LTCHs exceeded the 5-percent threshold for readmissions from co-located
                    hospitals during a cost reporting period in 2010 and 2011.58 These
                    116 LTCHs had a total of 537 readmissions from co-located providers that
                    should have been treated as interruptions; only 1 payment should have been
                    made to the LTCH rather than 2. Approximately 31 percent (36 of 116) of
                    the LTCHs that exceeded this threshold had reported their co-located status


                    56
                       Florida, Illinois, Louisiana, Massachusetts, New Jersey, and Nevada contained two or
                    fewer LTCHs with a high number of readmissions following multiple short stays at
                    intervening facilities.
                    57
                       In March 2013, OIG issued an early alert memorandum to CMS to report the
                    preliminary finding that co-located LTCHs remained unidentified and that overpayments
                    could result. For the early alert memorandum, OIG determined the co-located status of
                    211 LTCHs. This finding updates the information in the early alert based on an analysis
                    of all 449 LTCHs. See OIG, Early Alert Memorandum Report: Co-Located Long Term
                    Care Hospitals Remain Unidentified Resulting in Potential Overpayments,
                    OEI-04-12-00491, March 2013.
                    58
                       An additional 55 co-located LTCHs exceeded the 5-percent threshold by readmitting
                    only 1 beneficiary discharged to a hospital. We did not include these LTCHs in this total
                    because there were so few readmissions from the hospital with which the LTCH was
                    co-located.

Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)       18
                    to a MAC. Eighteen LTCHs readmitted at least 40 percent, or 8 times the
                    threshold, of the beneficiaries discharged to a co-located hospital. Four of
                    these eighteen LTCHs were located in Texas. Further, three LTCHs
                    exceeded the threshold with three different co-located hospitals, and
                    five LTCHs exceeded the threshold with two different co-located hospitals.
                    No co-located LTCHs exceeded the threshold for readmissions from co-
                    located SNFs, inpatient rehabilitation facilities, swing beds, and psychiatric
                    hospitals.
                    Eighty-two percent of the co-located LTCHs that exceeded the 5-percent
                    threshold were part of a chain.59 One chain represented 33 percent
                    (38 of 116) of the co-located LTCHs that exceeded the 5-percent threshold
                    and 30 percent of the 537 readmissions that should have been treated as
                    interruptions.60
                    Additionally, although the threshold does not apply to freestanding
                    LTCHs, 195 freestanding LTCHs readmitted more than 5 percent of
                    beneficiaries discharged to a single hospital.61 Eighty-one percent of these
                    LTCHs were part of a chain. Fifty-six freestanding LTCHs readmitted at
                    least 50 percent, or 10 times the threshold, of the beneficiaries discharged
                    to a single hospital. Two freestanding LTCHs exceeded the 5-percent
                    threshold with a SNF.
                    CMS lacked information to identify co-located LTCHs that
                    exceeded the 5-percent readmission threshold; as a result,
                    overpayments were made
                    LTCHs are required to notify MACs of their co-located status. MACs are
                    then required to report this information to CMS regional offices. However,
                    in 7 of the 14 claims-processing jurisdictions, no co-located LTCHs notified
                    their MAC of their co-located status. We identified 96 co-located LTCHs in
                    these 7 jurisdictions. Additionally, two of these seven MACs stated that
                    they do not monitor the co-located status of LTCHs in their jurisdictions.
                    See Appendix D for the number and percentage of co-located LTCHs in
                    each MAC jurisdiction in 2010 and 2011.
                    For 11 of the 14 jurisdictions, less than half of the co-located LTCHs that
                    we identified reported their co-located status. Additionally, some LTCHs
                    that reported their co-located status did not follow reporting requirements.

                    59
                       Seventy-four percent of all co-located LTCHs were part of a chain.
                    60
                       This chain represented 15 percent of all LTCH discharges during a cost-reporting
                    period from 2010 to 2011.
                    61
                       An additional 235 freestanding LTCHs readmitted more than 5 percent of beneficiaries
                    discharged to a single hospital by readmitting only 1 beneficiary discharged to that
                    hospital. We did not include these LTCHs in this total because there were so few
                    readmissions from the hospital.

Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)     19
                    Specifically, 1 hospital chain provided the co-located status of 79 LTCHs to
                    1 MAC, although none of these LTCHs were in that MAC’s jurisdiction.
                    We were unable to determine whether the appropriate payment adjustments
                    have been or will be made for the LTCHs that exceeded the 5-percent
                    readmission threshold in 2010 and 2011. According to CMS, the
                    adjustments would be made during the cost-report settlement process, which
                    had not been completed at the time of this review. However, CMS did not
                    know the co-located status of most LTCHs. Further, CMS has not
                    instructed MACs or CMS regional offices to identify co-located LTCHs that
                    exceed the 5-percent readmission threshold and has not created system edits
                    to identify these LTCHs since the threshold was established in 2002.




Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)   20
                    CONCLUSION AND RECOMMENDATIONS
                    Medicare paid $10.3 billion to 449 LTCHs for services billed on behalf of
                    approximately 254,000 beneficiaries in 2010 and 2011. The number of
                    LTCHs increased dramatically prior to a 2007 moratorium on their growth.
                    This moratorium ended in 2012. The LTCH interrupted-stay policy is
                    intended to save Medicare money by treating the LTCH stays before and
                    after an interruption as a single stay, rather than paying LTCHs for two
                    separate stays. However, our evaluation identifies several vulnerabilities in
                    the LTCH interrupted-stay policy, including inappropriate payments,
                    financial incentives to delay readmissions, and potential overpayments to
                    co-located LTCHs.
                    Medicare inappropriately paid $4.3 million to LTCHs and intervening
                    facilities for interrupted stays. Additionally, financial incentives created by
                    the interrupted stay payment policy may influence the readmission
                    decisions of some LTCHs. For example, LTCHs can increase their
                    reimbursement if beneficiaries stay at an intervening facility longer than the
                    fixed-day period because this results in a readmission and an additional
                    payment for the new LTCH stay. Specifically, 59 LTCHs had a high
                    number of readmissions immediately after the fixed-day period. Medicare
                    paid $12 million for these readmissions. LTCHs also receive an additional
                    payment for a new stay if beneficiaries receive services from multiple
                    intervening facilities before returning to the LTCH. Twenty-four LTCHs
                    had a high number of readmissions following multiple short stays at
                    intervening facilities. Medicare paid $3.1 million for these readmissions.
                    A high number of either of these types of readmissions raises questions as to
                    whether financial incentives—rather than beneficiaries’ medical
                    conditions—influenced readmission decisions.
                    Finally, CMS does not have the information needed to apply payment
                    adjustments to the one-third of co-located LTCHs that exceeded the
                    5-percent readmission threshold; as a result, overpayments were made.
                    CMS has not developed a process to identify co-located LTCHs that exceed
                    the 5-percent readmission threshold since this threshold was established in
                    2002.
                    We recommend that CMS:
                    Review existing safeguards to determine whether
                    additional action is needed to prevent future
                    inappropriate payments for interrupted stays
                    CMS should determine why its existing safeguards did not prevent all
                    inappropriate payments to LTCHs and intervening facilities for interrupted
                    stays. CMS inappropriately paid a total of $4.3 million to (1) LTCHs for

Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)   21
                    readmissions after stays at intervening facilities within the fixed-day period
                    and (2) intervening facilities for services provided during interruptions of
                    3 days or less. CMS should address any issues it identifies to prevent future
                    inappropriate Medicare payments for interrupted stays.
                    Conduct additional analysis to determine the extent to
                    which financial incentives influence LTCH readmission
                    decisions
                    CMS should conduct additional analysis of LTCH readmissions to
                    determine the extent to which financial incentives, rather than beneficiaries’
                    conditions, influence LTCH readmission decisions. If it determines that this
                    is an issue, CMS should consider ways to decrease the financial incentives
                    created by the interrupted-stay policy. For example, CMS could consider
                    imposing a readmission threshold on all LTCHs. If an LTCH exceeds the
                    threshold, CMS could treat the readmissions as interruptions, which would
                    decrease the financial incentive for readmissions. CMS could also consider
                    expanding the interrupted-stay policy to include multiple short stays at
                    different intervening facilities.
                    Develop a system to enforce the 5-percent
                    readmission threshold
                    OIG continues to recommend that CMS develop a system to enforce the
                    5-percent readmission threshold. MACs should consistently collect and
                    store information on the co-located status of LTCHs and immediately share
                    it with CMS regional offices. CMS or MACs could survey LTCHs on a
                    recurring basis to identify co-located LTCHs and changes in co-located
                    status. CMS should also continue to educate LTCHs on the requirement to
                    notify MACs of their co-located status. This education could help ensure
                    that LTCHs report this information to the appropriate MAC. CMS should
                    then use this information to determine which LTCHs exceeded the 5-percent
                    readmission threshold and recover overpayments to these LTCHs.
                    Take appropriate action regarding LTCHs with a high
                    number of readmissions immediately after the
                    fixed-day period and LTCHs with a high number of
                    readmissions following multiple short stays at
                    intervening facilities
                    In a separate memorandum, we will refer to CMS for appropriate action
                    (1) the LTCHs with a high number of readmissions immediately after the
                    fixed-day period, (2) the LTCHs with a high number of readmissions
                    following multiple short stays at intervening facilities, and (3) the
                    intervening facilities associated with these readmissions. Appropriate action
                    may include determining whether all days at the intervening facilities and


Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)   22
                    readmissions to these LTCHs were appropriate, by conducting medical
                    record reviews and/or site visits and/or implementing prepayment reviews.
                    If fraudulent or abusive activity is discovered, CMS should refer the LTCHs
                    and/or intervening facilities to law enforcement for investigation. Further,
                    CMS should monitor LTCHs with a high number of these readmissions and
                    ensure that they do not use these methods to inappropriately receive
                    additional payments.
                    Take appropriate action on inappropriate payments for
                    interruptions and overpayments to co-located LTCHs
                    that exceeded the 5-percent readmission threshold
                    In the aforementioned memorandum, we will also refer to CMS the claims
                    associated with inappropriate payments to LTCHs and intervening facilities.
                    CMS should review and recover these inappropriate payments, as
                    appropriate. We will also refer to CMS the co-located LTCHs that exceeded
                    the 5-percent readmission threshold and the claims associated with
                    readmissions that should have been treated as interrupted stays. CMS
                    should identify and recover overpayments to these LTCHs, as appropriate.




Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)   23
                    AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                    RESPONSE
                    In its comments on our draft report, CMS concurred—contingent on
                    receiving more information from OIG—with two of our recommendations
                    and nonconcurred with three recommendations. Noting that recently
                    enacted legislation established a new LTCH Prospective Payment System
                    payment structure beginning in FY 2016, CMS stated that it is examining
                    whether the 5-percent readmission threshold will continue to be necessary
                    under this new system.

                    In several places in its comments, CMS stated that it needs to review OIG
                    data before concurring, or fully concurring, with our recommendations.
                    OIG’s Office of Evaluation and Inspections does not provide detailed
                    evaluation data and analyses to agencies prior to the finalization of a report,
                    and we do not believe that the decision to concur or noncur with our
                    recommendations requires a full review of these data and analyses. After
                    the release of the final report, OIG will provide CMS with all appropriate
                    data and analyses to support CMS’s efforts to address the vulnerabilities
                    identified by our evaluation.

                    With regard to our first recommendation, CMS concurred contingent on
                    OIG’s providing information that indicates that existing program
                    safeguards are not preventing inappropriate payments. CMS stated that it
                    would need to review OIG’s data to determine whether it agrees that
                    inappropriate payments were made. Our analyses indicate that
                    inappropriate payments did occur. After issuing the final report, we will
                    provide the appropriate information in a separate memorandum. We
                    encourage CMS to review this information and the agency’s existing
                    safeguards to determine whether additional action is needed to prevent
                    future inappropriate payments for interrupted stays.
                    With regard to our second recommendation, CMS stated that it
                    nonconcurred at this time. CMS agreed that LTCH prospective payment
                    system policies should not provide incentives for LTCH readmission
                    decisions to be based on financial benefit. However, CMS stated that it
                    cannot agree that additional analyses are warranted until OIG provides it
                    with information to enable additional financial review. CMS stated that it
                    would need to investigate ownership and/or control relationships between
                    referring hospitals and the LTCHs in question and evaluate whether there
                    is a pattern of behavior over several years. CMS also stated that it would
                    need further information from OIG suggesting that Medicare payment
                    policy is influencing LTCH readmission decisions. We will provide CMS
                    with ownership information for LTCHs as well as data and analyses

Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)   24
                    concerning readmissions between LTCHs and hospitals for the 2 years
                    included in this evaluation. We will not conduct or provide any additional
                    analyses at this time. We continue to recommend that CMS conduct
                    additional analyses to determine the extent to which financial incentives
                    influence readmission decisions.
                    With regard to our third recommendation, CMS nonconcurred and stated
                    that it is examining whether the 5-percent readmission threshold will
                    continue to be necessary under the new LTCH payment system, which
                    will begin in FY 2016. OIG reiterates that CMS should enforce the
                    current policy until the new prospective payment policy is in effect. Not
                    doing so would prevent CMS from collecting any overpayments
                    associated with the current policy during the period—more than a year—
                    before the new policy takes effect, in addition to any overpayments that it
                    has failed to collect since the current policy was implemented in 2003.
                    Further, OIG believes that CMS currently does not have the information
                    necessary (e.g., number of co-located LTCHs, identity of co-located
                    LTCHs and host facilities, number of discharges to host facilities) to
                    determine whether the 5-percent threshold should remain in effect under
                    the new payment system. We will refer to CMS the information that we
                    collected regarding co-located LTCHs and host facilities, and we
                    encourage the agency to use this information when making this
                    determination.
                    With regard to our fourth recommendation, CMS stated that it
                    nonconcurred at this time. CMS said that it cannot determine what, if any,
                    appropriate actions are necessary with regard to LTCHs with a high
                    number of readmissions immediately after the fixed-day day period or
                    following multiple short intervening-facility stays because neither
                    necessarily indicate improper practice or inappropriate payment. Our
                    report states that payment for these readmissions may be appropriate;
                    however, having a high number of either type of readmission raises
                    questions as to whether financial incentives—rather than beneficiaries’
                    medical conditions—drove readmission decisions. We will refer to CMS
                    the LTCHs, intervening facilities, and claims associated with these
                    readmissions to determine the most appropriate action for the LTCHs that
                    we identified.
                    With regard to our fifth recommendation, CMS concurred on the condition
                    that it can validate OIG’s assertion that hospitals were overpaid because
                    CMS did not apply the 5-percent readmission threshold. CMS requests
                    that OIG provide specific information for each of the identified claims,
                    including the overpayment amount. We will provide specific claims
                    information, but we are unable to provide an overpayment amount for
                    these claims. The 5-percent readmission threshold policy requires that

Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)   25
                    certain claims be adjusted after an LTCH exceeds the threshold to reflect
                    an interrupted stay rather than a separate readmission. This adjustment
                    could trigger other payment adjustments (e.g., a high-cost outlier payment
                    or the reversal of a short-stay outlier payment), and OIG cannot calculate
                    the exact overpayment amounts in these cases. Further, CMS was unable
                    to provide its methodology for calculating these overpayments, suggesting
                    that it has not made these calculations since the current prospective
                    payment policy was implemented in 2003 and thus has missed the
                    opportunity to collect 7 years of potential overpayments. We encourage
                    CMS to use the information that we refer to it to calculate and collect
                    overpayments made to LTCHs that exceeded the 5-percent readmission
                    threshold.
                    We support CMS’s efforts to address these issues and encourage it to
                    continue making progress in these areas. For the full text of CMS’s
                    comments, see Appendix E.




Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)   26
                    APPENDIX A
                                      Number of LTCHs by State, 2010 and 2011

                                                                Number of          Percentage of
                                   State                          LTCHs*                 LTCHs
                                   Texas                              82                    18%
                                   Louisiana                              39                    9%
                                   Ohio                                   25                    6%
                                   Pennsylvania                           23                    5%
                                   California                             20                    4%
                                   Florida                                20                    4%
                                   Michigan                               19                    4%
                                   Georgia                                15                    3%
                                   Massachusetts                          15                    3%
                                   Indiana                                14                    3%
                                   Oklahoma                               14                    3%
                                   Missouri                               12                    3%
                                   Mississippi                            10                    2%
                                   North Carolina                          9                    2%
                                   Tennessee                               9                    2%
                                   Alabama                                 8                    2%
                                   Arkansas                                8                    2%
                                   Arizona                                 8                    2%
                                   Colorado                                8                    2%
                                   Illinois                                8                    2%
                                   New Jersey                              8                    2%
                                   Kentucky                                6                    1%
                                   Nevada                                  6                    1%
                                   South Carolina                          6                    1%
                                   Virginia                                6                    1%
                                   Kansas                                  5                    1%
                                   Wisconsin                               5                    1%
                                   Maryland                                4                    1%
                                   New York                                4                    1%
                                   Connecticut                             3                    1%
                                   Idaho                                   3                    1%
                                   New Mexico                              3                    1%
                                   Utah                                    3                    1%
                                   Washington,
                                                                           2                   <1%
                                   D.C.
                                                                         Continued on next page




Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)   27
                 Appendix A (Continued)

                                                                    Number of             Percentage of
                                   State                               LTCHs                    LTCHs
                                   Iowa                                     2                      <1%
                                   Minnesota                                     2                     <1%
                                   North Dakota                                  2                     <1%
                                   Nebraska                                      2                     <1%
                                   Washington                                    2                     <1%
                                   West Virginia                                 2                     <1%
                                   Alaska                                        1                     <1%
                                   Delaware                                      1                     <1%
                                   Hawaii                                        1                     <1%
                                   Montana                                       1                     <1%
                                   Oregon                                        1                     <1%
                                   Rhode Island                                  1                     <1%
                                   South Dakota                                  1                     <1%
                                    Total                                     449                     100%
                                   *This column indicates the number of LTCHs that billed Medicare in both 

                                   2010 and 2011. 

                                   Source: OIG analysis of 2010 and 2011 Part A Inpatient Standard

                                   Analytical Files, 2013. 





Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)           28
APPENDIX B
                               Example of Total Payments to an LTCH for
                               a Stay With a 3-Day-or-Less Interruption for
                                            MS-LTC-DRG 207


                                                        LTCH stay

                                   Length: 30 days                       No payment to LTCH




                                          Stay of less than 3 days at an
                                                intervening facility
                                                                  LTCH pays intervening facility for
                                    Length: 2 days                   services provided under
                                                                          arrangements




                                                Continued LTCH stay
                                                                         Payment to LTCH for
                                   Length: 20 days                        MS-LTC-DRG 207:
                                                                             $80,158.22




                                Total payments to LTCH: $80,158.22
                      *Payments reflect FY 2011 LTCH Prospective Payment System rates and do not include any potential case-level 

                      or facility-level adjustments. 

                      Source: OIG analysis of interrupted-stay policy and 2011 LTCH Prospective Payment System Reimbursement

                      Rates, 2013. 





Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)                            29
APPENDIX C
                    Number of LTCHs With a High Number of Readmissions Immediately After
                    the Fixed-Day Period by State, 2010 and 2011

                                                           Number of LTCHs with a
                                                                    High Number of
                               State
                                                         Readmissions Immediately
                                                         After the Fixed-Day Period
                               Texas                                                    10
                               California                                               6
                               Ohio                                                     6
                               Florida                                                   4
                               Massachusetts                                            4
                               Illinois                                                  3
                               Louisiana                                                 3
                               Oklahoma                                                 3
                               Michigan                                                  2
                               North Carolina                                            2
                               Tennessee                                                 2
                               Virginia                                                  2
                               Alabama                                                   1
                               Colorado                                                  1
                               Kentucky                                                  1
                               Mississippi                                               1
                               Montana                                                   1
                               Nebraska                                                  1
                               Nevada                                                    1
                               New Jersey                                                1
                               New Mexico                                                1
                               New York                                                  1
                               Utah                                                      1
                               Wisconsin                                                 1
                                Total                                                   59
                               Source: OIG analysis of 2010 and 2011 Part A Inpatient
                               Standard Analytical Files, 2013.




Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)   30
APPENDIX D
                    Number and Percentage of Co-Located LTCHs by MAC Jurisdiction, 2010
                    and 2011
                                                                                                  Percentage of
                                                                                                    Co-Located        Percentage of
                                    Number LTCHs              Number of
                                                                                Number of           LTCHs That          LTCHs That
              MAC                    That Reported           Co-Located
                                                                                  LTCHs               Reported                 Are
                                  Being Co-Located               LTCHs
                                                                                                         Being          Co-Located
                                                                                                    Co-Located
              A                                    65*                105               121                  62%                 87%

              B                                     10                  18                20                 56%                 90%

              C                                      1                   2                 8                 50%                 25%

              D                                      3                  10                11                 30%                 91%

              E                                      5                  17                19                 29%                 89%

              F                                      2                   9                14                 22%                 64%

              G                                      2                  72              109                   3%                 65%

              H                                      0                   3                 7                  0%                 43%

              I                                      0                   4                 6                  0%                 67%

              J                                      0                   4                 7                  0%                 57%

              K                                      0                   4                11                  0%                 36%

              L                                      0                   6                12                  0%                 50%

              M                                      0                   8                14                  0%                 57%

              N                                      0                  67                90                  0%                 74%

                  Total                           88**                329               449                  27%                 73%
             *The 65 LTCHs that reported their co-located status in this jurisdiction did so to a different MAC. 

             **MACs reported that 99 LTCHs had notified them of being co-located. Of these 99, 88 LTCHs were co-located and submitted

             claims to Medicare in 2010 and/or 2011. 

             Source: OIG analysis of MAC responses, co-location information, and 2010 and 2011 Part A Inpatient Standard Analytical 

             Files, 2013.





Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)                            31
APPENDIX E
                       Agency Comments



  llr<iO"'<'l:s


                   DEPARTMENT OF HEALlli & HUMAN SERVJCES                                  Centers for Medicare & Medicaid Services


                                                                                          Administrator
                                                                                           Washington, DC 20201




                  DATE: 	       MAR Z8 Z014

                  TO: 	         Daniel R. Levinson 

                                l.llspecte>r General 

                                                    /S/
                  FROM: 	       Mar{Tyn U!vemrer 

                                Admltustrator 


                  SUBJECT: 	 Office of Inspector General (OIG) Draft Report: Vulnerabilities in
                             Medicare's Interrupted Stay Policy (OEI-04-12-00490)

                  The Centers for Medicare & Medicaid Services (CMS) thanks OIG for the opportunity to review
                  and comment on the above subject draft report. OIG's objectives for this study were to--(1)
                  describe billing of interrupted stays and readmissions in long-term care hospitals (LTCHs); (2)
                  determine the extent to which Medicare made inappropriate payments for interrupted stays in
                  LTCHs; (3) determine the extent to which LTCHs readmitted beneficiaries immediately after the
                  fixed-day period or after multiple short intervening facility stays, resulting in an additional
                  LTCH payment; and (4) determine the extent to which co-located LTCHs reported their co­
                  located status and exceeded the 5-percent readmission threshold.

                  The OIG analyzed data from Long Term Care Hospitals (LTCHs) and intervening facility claims
                  in 2010 and 2011 to identify inappropriate payments for interrupted stays in LTCHs.
                  Additionally, OIG identified LTCHs with a high number of readmissions immediately after the
                  fixed-day period and after multiple short intervening facility stays. OIG also identified co­
                  located LTCHs billing in 2010 and 2011 and determined whether they reported their status and
                  whether they exceeded the 5-percent readmission threshold. OIG concluded that CMS has
                  vulnerabilities in the LTCH interrupted stay policy, including inappropriate payments, financial
                  incentives to delay readmissions, and potential overpayments to co-located LTCHs. OIG
                  concluded that in 2010 and 2011, Medicare inappropriately paid $4.3 million to LTCHs and
                  intervening facilities for interrupted stays. Additionally, 59 LTCHs had a high number of
                  readmissions immediately after the fixed-day period and 24 LTCHs had a high number of
                  readmissions following multiple short intervening facility stays. Medicare paid $12 million and
                  $3.1 million, respectively, for these readmissions. While OIG indicates that these readmissions
                  may be appropriate, they raised concerns about whether financial incentives, rather than
                  beneficiaries' medical conditions, may have influenced readmission decisions of some LTCHs.
                  They also found that CMS did not know the co-located status of most LTCHs, preventing it from
                  applying a payment adjustment to the 35 percent of co-located LTCHs that exceeded the
                   5-percent readmissions threshold.

                  We note that recently enacted legislation establishes a new LTCH Prospective Payment System
                  (PPS) payment structure beginning in fiscal year (FY) 2016 that specifies clinical criteria for




Vulnerabilities in Medicare's Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)                                  32
Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)   33
Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)   34
Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)   35
                    ACKNOWLEDGMENTS
                    This report was prepared under the direction of Dwayne Grant, Regional
                    Inspector General for Evaluation and Inspections in the Atlanta regional
                    office, and Jaime Durley, Deputy Regional Inspector General.
                    Sarah Langford served as the lead analyst. Other Office of Evaluation and
                    Inspections staff from the Atlanta regional office who conducted the study
                    include Rachel Bessette. Central office staff who provided support
                    include Althea Hosein, Scott Manley, and Christine Moritz.




Vulnerabilities in Medicare’s Interrupted-Stay Policy for Long-Term Care Hospitals (OEI-04-12-00490)   36
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
